rT

Q@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:

contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.

JAMES KING,
Cross-Petitioner,

v.
DOUGLAS BROWNBACK, ET AL.,
Cross-Respondents.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 27th day of November, 2019, send

out from Omaha, NE 1 package(s) containing 3 copies of the CONDITIONAL CROSS-PETITION FOR A WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were

plainly addressed to the following:

SEE ATTACHED
To be filed for:
PATRICK JAICOMO ANYA BIDWELL
Counsel of Record INSTITUTE FOR JUSTICE
KEITH NEELY 816 Congress Avenue
INSTITUTE FOR JUSTICE Suite 960
901 North Glebe Road Austin, TX 78701
Suite 900 (512) 480-5936
Arlington, VA 22203 abidwell@ij.org
(703) 682-9320
pjaicomo@ij.org D. ANDREW PORTINGA
kneely@ij.org MILLER JOHNSON
45 Ottawa Avenue SW
Suite 1100
Grand Rapids, MI 49503
(703) 682-9320

portingaa@millerjohnson.com

Subscribed and sworn to before me this 27th day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska

My Commission Expires Nov 24, 2020

 

Notary Public

 

Affiant 38973
SERVICE LIST

NOEL J. FRANCISCO

Solicitor General
MICHAEL R. HUSTON

Assistant to the Solicitor General
OFFICE OF THE SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
Room 5616
950 Pennsylvania Avenue NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov
